Prepared by PrintingHouse Press, Ltd. 10 East 39th Street, New York, NY 10016
Tel No: (212) 719-0990 Fax No: (212) 398-9253

STATE OF NEW YORK )
COUNTY OF NEW YORK ) SS

Paul Budhu, Being duly sworn, deposes and says that deponent is not party to the action, and is over 18 years
of age.

That on 6/25/2019 deponent caused to be served 3 copy(s) of the within

Petition for Writ of Certiorari and Appendix

upon the attorneys at the address below, and by the following method:

By Express Mail and Email
Randall D. Unger, Esq.
Attorney for Respondent

42-40 Bell Blvd. #302
Bayside, NY 11361

Ou v. h- Q- tl

Sworn to me this Case Name: The State of New York v. Jahmarley Jones
Tuesday, June 25, 2019
Antoine Victoria Robertson Coston Docket/Case No:

Notary Public, State of New York
No.01R06286515
Qualified in Nassau County +
Commission Expires on 7/29/2021 Index:
